   LEGAL SERVICES
     CORPORATION



         Office of
     Inspector General




Semiannual Report to the Congress
April 1, 2008 – September 30, 2008


          www.oig.lsc.gov
 TO THE BOARD OF DIRECTORS OF THE LEGAL SERVICES CORPORATION
              AND TO THE UNITED STATES CONGRESS

                 A MESSAGE FROM THE INSPECTOR GENERAL


I am pleased to submit this report on the activities and accomplishments of LSC’s
Office of Inspector General (OIG) for the period April 1 through September 30,
2008.

This report is the first for which I have had the privilege of serving as Inspector
General throughout the entire covered period. I have been impressed with the
talent and dedication of the OIG staff, and am gratified at the contributions we have
been able to make in helping to promote economy and efficiency and to protect
against fraud and abuse in the Corporation’s operations.

A major focus of our efforts during the period was the priority audits we had initiated
to review internal controls at selected grantees. These audits, undertaken at
management’s request, address issues identified in a recent Government
Accountability Office (GAO) report regarding LSC’s controls over grant
management and oversight. We completed audits at five of the eight grantees
referred to us by management. In each of the completed audits, grantee
management agreed with our recommendations and took corrective action. The
remaining audits will be completed during the next reporting period.

As part of our oversight role with respect to the grantee audit process, during the
period the OIG issued three audit service review (ASR) reports. We also conducted
field work for one new and one follow-up ASR.

The OIG opened 23 new investigations, and closed 22 investigations during the
reporting period. We also completed a comprehensive financial risk assessment
project, conducted fraud vulnerability assessments at two grantee locations, and
issued a fraud alert to all executive directors to highlight issues and vulnerabilities
identified in the investigation of a fraudulent scheme in which both grantee and
client funds were stolen by a grantee employee.

This period we initiated a new practice for the OIG, the issuance of Management
Information Memoranda (MIMs). We will issue a MIM when we identify an issue in
the course of ongoing OIG work that we believe should be brought promptly to
management’s attention, so that they may consider taking immediate corrective
action. During the period we issued MIMs on matters including unallowable dues
payments, inaccurate grantee data reporting, a deficiency in the Corporation’s
automated accounting system, and delinquent travel expense reports.
Management was responsive to each of these MIMs.
I would like to express my appreciation to the Board of Directors, LSC management,
and to the Congress, for the support and cooperation I have received. I will
reiterate the sentiment I expressed shortly after I embarked upon my tenure as
LSC’s Inspector General: I can think of no better role than one devoted to the dual
goals of helping to improve the economy and efficiency of programs serving the
legal needs of the poor and of protecting taxpayer dollars from fraud and abuse.

I look forward to continuing to work with all in the LSC community in seeking to
improve and protect LSC’s programs.

Sincerely,



Jeffrey E. Schanz
Inspector General
October 31, 2008
                                         TABLE OF CONTENTS


OFFICE OF INSPECTOR GENERAL OVERVIEW .................................................. 1 

AUDITS..................................................................................................................... 3 
 Audits Of Selected Internal Controls At Grantees ................................................. 3 
      Neighborhood Legal Services Program of the District of Columbia................ 4 
      Philadelphia Legal Assistance Center............................................................ 4 
      Wyoming Legal Services, Inc. ........................................................................ 5 
      Laurel Legal Services, Inc. (PA)..................................................................... 6 
      Legal Assistance Foundation of Metropolitan Chicago .................................. 7 
 Independent Audits Of Grantees........................................................................... 8 
 Follow-up Process................................................................................................. 9 
 Review of Grantees’ Annual Audit Reports: IPA Audit Findings........................... 9 
 Summary of Findings Reported in Recipient Financial Statement Audits............ 10 
 Types of Findings Referred to LSC Management for Follow-up.......................... 10 
 Audit Service Reviews......................................................................................... 11 

INVESTIGATIONS.................................................................................................. 12 
  Fraud Alert Issued to Executive Directors ........................................................... 12 
  Financial Risk and Fraud Vulnerability Assessments .......................................... 13 
  Hotline ................................................................................................................. 13 

LEGAL REVIEWS................................................................................................... 15 
  Review of Proposed Legislation, Regulations and Policy.................................... 15 
  Litigation Activities............................................................................................... 16 
  Other Activities .................................................................................................... 16 

OTHER OIG ACTIVITIES ....................................................................................... 17 
 Management Information Memoranda ................................................................ 17 
     Management Information Memorandum – Dues Payments ......................... 17 
     Management Information Memorandum – Grantee Data Reporting ............ 17 
     Management Information Memorandum – Automated Accounting
        Records, Improvement Needed ............................................................... 17 
     Management Information Memorandum – Delinquent Travel Expense
     Reports ........................................................................................................ 18 
 Congressional Request ....................................................................................... 18 
 Ad Hoc Committee .............................................................................................. 18
 Audit Committee.................................................................................................. 19 
 Professional Assistance ...................................................................................... 19 
 Statement of Professional Standards .................................................................. 20
AUDIT REPORTS ISSUED for the Period Ending September 30, 2008 ............. 21

AUDIT SERVICE REVIEWS ISSUED for the Period Ending
  September 30, 2008........................................................................................ 21

TABLE I - Audit Reports Issued with Questioned Costs for the
  Period Ending September 30, 2008 ................................................................ 22

TABLE II - Audit Reports Issued with Funds to Be Put to Better Use for the
  Period Ending September 30, 2008 ................................................................ 23

TABLE III – Index to Reporting Requirements of the Inspector General ............. 24
           OFFICE OF INSPECTOR GENERAL OVERVIEW


The LSC Office of Inspector General operates under the Inspector General Act of
1978, 5 U.S.C. App. 3. In 1988, Congress amended the IG Act and required
LSC and about 30 other, mostly smaller, federally funded entities to establish
independent Offices of Inspector General.

The OIG has two principal missions: (1) to assist management in identifying ways
to promote economy and efficiency in the activities and operations of LSC and its
grantees; and (2) to prevent and detect fraud and abuse. Thus, the OIG assists
management in fostering effective operations, in identifying and overcoming
obstacles to good program management, and in preventing future problems. The
OIG must also identify and report on current problems.

The OIG's primary tool for achieving these missions is objective and independent
fact-finding, performed through financial and other types of audits, evaluations
and reviews, as well as through investigations into allegations of wrongdoing. Its
fact-finding activities enable the OIG to develop recommendations to LSC,
Congress, and grantee management for actions or changes that will correct
problems, better safeguard the integrity of funds, improve procedures, or
otherwise increase the economy, efficiency and effectiveness of LSC programs.

The OIG is also tasked with ensuring the quality of audits of LSC and its
grantees, conducted by independent public accountants, and with reviewing
proposed and existing regulations and legislation affecting the operations and
activities of LSC and the programs it funds.

In addition, since 1996 LSC's annual appropriation has directed that grantee
compliance with legal requirements be monitored through the annual grantee
audits conducted by independent public accountants, under guidance developed
by the OIG. Congress has also specified that the OIG has authority to conduct
its own reviews of grantees.

The OIG is headed by the Inspector General who reports to and is under the
general supervision of the LSC Board of Directors. The IG has broad authority to
manage the OIG, including setting OIG priorities and activities, and to hire OIG
personnel, consultants, and experts.

To ensure objectivity, the IG Act grants the LSC IG independent authority to
determine what reviews are performed; to gain access to all documents needed
for OIG reviews; to publish findings and recommendations based on OIG
reviews; and to report OIG findings and recommendations to the LSC Board of
Directors and to Congress. The IG Act also prohibits LSC from assigning to its
IG any of LSC’s own "program operating responsibilities." This means that the

                                        1
OIG does not perform functions assigned to LSC by the Legal Services
Corporation Act, 42 U.S.C. §§2996 et seq., other than those transferred to the
OIG under the IG Act, and those otherwise assigned by Congress, for example in
LSC’s annual appropriations acts.

The IG must report serious problems to the LSC Board of Directors and must
also report to appropriate law enforcement authorities when, through audit,
investigation, or otherwise, the IG has found that there are reasonable grounds to
believe that a crime has occurred. The OIG is not an "arm" of the Congress, as
is the Comptroller General, but is required by law to keep the Congress informed
through semiannual reports and other means. The IG also provides periodic
reports to the Board and management of LSC, and occasionally to the boards of
directors and management of LSC grantees. Some of these reports will be
specific (e.g., an audit of a particular grantee or an investigation of a theft), while
others will be of more general interest to management.

To be effective, the OIG works cooperatively with the Board and management,
seeks their input prior to choosing topics for OIG review, and keeps them
informed of OIG activities. Within their different statutory roles, the OIG and LSC
management share a common commitment to improving the federal legal
services program and increasing the availability of legal services to the poor.




                                          2
                                    AUDITS


In this reporting period, the OIG issued final reports on selected internal controls
for five of the eight grantees referred to us by LSC management. The remaining
three audit reports will be issued next reporting period. Work at these grantees
was a primary focus of the OIG’s audit efforts this period. These audits are the
result of a high priority request and were undertaken in support of the Board’s
and management’s desire to quickly address the issues identified in a report by
the Government Accountability Office on LSC’s grant management and
oversight.

Also during this reporting period, the OIG issued three Audit Service Reviews
(ASRs), and conducted field work for one new and one follow-up ASR. In
addition, audit staff assisted in one fraud investigation, which is still on-going.

In order to keep the Board of Directors, LSC management, the Congress, and
the public fully informed, the OIG is including summary information of its review
of the fiscal year 2007 independent public accountant audits required by law of
each recipient receiving financial assistance from the Corporation.


Audits Of Selected Internal Controls At Grantees

On November 20, 2007, the President of LSC referred to the OIG instances of
internal control weaknesses at eight grantees that were identified in the GAO
Draft Report entitled, “Legal Services Corporation - Improved Internal Controls
Needed in Grants Management and Oversight,” or indentified in a November 13,
2007 meeting between GAO and LSC staff. The final GAO report (GAO-08-37)
was published on December 28, 2007.

The OIG agreed to review the internal control issues identified in the GAO report
to determine whether the conditions cited in the GAO report were corrected and
whether controls were put in place to detect similar situations and to prevent
them from recurring. In addition, we evaluated other selected financial and
administrative areas relating to the GAO findings and tested the related controls.

We began our review during the last reporting period. This period we conducted
the remaining field work – visits to all eight grantees have now been completed –
and issued five final audit reports. The remaining three reports will be issued
during the next reporting period. The OIG will issue an overview report to
management summarizing the findings for all eight audits and identifying any
policy issues that need to be addressed.



                                         3
One issue cited in the GAO report was that GAO identified no authority to use
LSC grant funds for interest-free or other loans to grantee employees. While we
also did not find a specific authority to allow such loans, neither did we find any
specific authority to prohibit such loans.         Since the GAO report, LSC
management issued an advisory memorandum to all Executive Directors as a
general reminder of the importance of proper fiscal management. Among the
items specifically addressed was the issue of salary advances.                  The
memorandum noted that grantees were not prohibited from providing salary
advances to employees, but stressed the importance of having written policies
and procedures governing such advances and the need for timely repayments.
The memorandum also highlighted issues concerning documentation of
expenditures; unallowable costs (in particular, lobbying fees, penalties, and
alcohol); and derivative income. (Advisory from the President, Legal Services
Corporation to all LSC Executive Directors regarding "Fiscal Management and
Use of LSC Funds,” March 20, 2008.)

The following sections summarize the five audit reports issued during this
reporting period.

        Neighborhood Legal Services Program of the District of Columbia

Neighborhood Legal Services Program of the District of Columbia management
had taken appropriate actions to address issues raised by GAO dealing with the
lack of supporting documentation for payments. Our tests disclosed that
disbursements were adequately supported and allowable, and allocations to LSC
funds were proper. Also, internal controls over the client intake process;
employee benefits and reimbursements; disbursements; and internal
management reporting/budgeting were operating in a manner expected to ensure
compliance with the LSC Act and regulations.

However, we did note that the grantee’s internal controls could be strengthened
by documenting adjustments to accounting records; controlling significant dollar
value purchases; and reviewing and approving the Executive Director’s travel
vouchers. We also noted that a written policy on salary advances was
necessary. Grantee management agreed with our recommendations and has
taken corrective actions.

      Philadelphia Legal Assistance Center

Grantee management had taken action to correct issues identified by GAO and
implemented internal controls to prevent and detect such issues in the future.
Grantee management had drafted a written policy on salary advances and an
authorization process requiring employees to sign a statement acknowledging
the amount advanced and the monthly repayment amount. Subsequent to our
on-site fieldwork, the grantee’s Director of Finance provided us with the current
policy in place on salary advances. In addition to signed agreements, the policy

                                        4
now includes a provision requiring repayments by payroll deduction. Based on
our review, all of the salary advances outstanding as of December 31, 2007,
were supported by signed agreements.

Our review also disclosed that disbursements tested were adequately supported,
allowable and properly allocated to LSC. Also, internal controls over the client
intake process; employee benefits and reimbursements; disbursements; and
internal management reporting/budgeting were operating in a manner expected
to ensure compliance with the LSC Act and LSC regulations.

However, we did note that the grantee’s internal controls could be strengthened
by revising and updating the grantee’s accounting manual to incorporate current
accounting and fiscal practices; treating adjustments to accounting records as
journal entries and having the entries reviewed or approved by a separate
grantee employee; and by having an authorized individual review and approve
bank account reconciliations.       Grantee management agreed with our
recommendations and has taken corrective actions.

      Wyoming Legal Services, Inc.

Our review disclosed that Wyoming Legal Services, Inc. management had taken
action to address issues raised by GAO. GAO identified two instances of internal
control weaknesses at the grantee dealing with insufficient documentation and
late fees.

As noted in the GAO report, the grantee had a change in management in
August 2006, and the current Executive Director was unable to locate many of
the records and invoices related to payments made under the previous Executive
Director. In addition, the main office of the grantee had moved from Lander,
Wyoming to Casper, Wyoming. Since the visit by GAO, the grantee was able to
locate the missing documentation. Based on our review, we were able to
determine that approved purchase orders and invoices were now maintained in
the grantee's Casper office supporting the grantee's disbursements for the period
January 1, 2005 through July 31, 2006 (the time period reviewed by GAO). In
addition, our review of a sample of disbursements made in 2007 and 2008 found
they were sufficiently documented.

Late fees were incurred by the grantee because of a breakdown in controls under
the previous Executive Director's administration and because invoices were not
routed to the recently relocated main office by vendors and staff. While we did
note that the grantee incurred additional late fees after the GAO visit, the grantee
has implemented steps to preclude the incurrence of late fees in the future.
Notwithstanding the improved internal control, we consider the late fees of $961
to be questioned costs and these were referred to LSC management for their
review and action.


                                         5
Our review of disbursements disclosed that payments were supported with
adequate documentation. However, two payments totaling $ 3,725 charged to
LSC funds for membership dues to the National Legal Aid & Defender
Association for the years 2007 and 2008 were not allowable under LSC
regulations. We consider the dues payment of $3,725 to be questioned costs
and have referred the matter to LSC management. As a result of this finding, the
OIG issued an advisory memorandum to LSC management suggesting that
future visits to other grantees by LSC oversight staff determine if this is a
systemic problem that management needs to address LSC-wide.

While we did find that internal controls reviewed were operating in a manner
expected to ensure compliance with the LSC Act and regulations, we noted that
the grantee’s internal controls could be strengthened by preparing internal
management reports on a monthly basis with sufficient detail to provide oversight
and internal control over financial operations; periodically reviewing and updating
as needed the percentages used to allocate costs to the various funding sources;
conducting periodic physical inventories of fixed assets; and developing and
using a strategic plan that formalizes processes for assessing risk and
performing periodic internal control evaluations. Grantee management agreed
with our recommendations and has taken corrective action.

      Laurel Legal Services, Inc. (PA)

The OIG found that grantee management had taken appropriate actions to
address an issue raised by GAO dealing with the lack of supporting
documentation for contract payments. The grantee entered into an LSC
approved subgrant with an organization to make pro bono referrals for qualified
clients and to assist the grantee in establishing and operating a reduced fee
panel for qualified clients. The subgrantee was to submit monthly detailed written
statistical information concerning cases handled. At the time of GAO’s review,
grantee management indicated that it had only obtained verbal information from
the subgrantee on a monthly basis and the required written statistical information
on cases annually.        Grantee management determined it would require the
subgrantee to submit the information on a monthly basis, in accordance with the
terms of the subgrant. Our review of detailed reports for the first two months of
2008 confirmed that the grantee is now obtaining the required written information
from the subgrantee on a monthly basis.

Disbursements tested were adequately supported, allowable, and properly
allocated to LSC. Also, internal controls over the client intake process; employee
benefits and reimbursements; disbursements; and internal management
reporting/budgeting were operating in a manner expected to ensure compliance
with the LSC Act and regulations.

However, we did note three areas where internal controls could be strengthened.
First, the grantee should complete a client intake manual. Second, procedures

                                         6
should be established to control sensitive assets valued under the $5,000
capitalization threshold. Third, client trust accounts should be reconciled on a
monthly basis. Grantee management agreed with our recommendations and has
taken corrective actions.

      Legal Assistance Foundation of Metropolitan Chicago

Legal Assistance Foundation of Metropolitan Chicago had taken appropriate
action to address the issue raised by GAO dealing with insufficient supporting
documentation. Grantee disbursements tested were adequately supported,
allowable, and properly allocated to LSC with minor exceptions. We noted in
several instances that supporting documentation was not contained in the
respective vendor file, but the grantee was able to locate the documentation
upon request.

In addition, we noted derivative income had been improperly recorded as
unrestricted funds. During 2006, the grantee received over $900,000 in an
attorneys' fee award relating to a case in which the grantee had been involved
prior to 1996. The receipt of such an award for work undertaken in cases prior to
1996 is not prohibited and therefore was not a violation of LSC regulations.
However, we found that the fees received from the award were allocated to the
unrestricted funds account rather than allocated to LSC funds as required by
regulation. The grantee noted, however, that although the award was not treated
pursuant to LSC regulations when received, a dollar amount at least equal in size
was ultimately allocated to the LSC funds account for both 2006 and 2007.
Because the derivative income was not recorded in accordance with LSC
regulations, the OIG referred this matter to LSC management for follow-up and
corrective action.

In addition, we found that internal controls over the general client intake process;
employee benefits and reimbursements; disbursements; and internal
management reporting/budgeting were operating in a manner expected to ensure
compliance with the LSC Act and regulations.

However, we identified areas where internal controls could be strengthened.
Duties in the accounts payable function should be periodically rotated and a
formal written policy governing consultant contracting should be prepared.
Grantee management agreed with our recommendations and has taken
corrective actions.




                                         7
Audit Reports

      Open at beginning of reporting period                       0

      Issued during reporting period                              5

      Closed during reporting period                              3

      Open at end of reporting period                             2


Recommendations to LSC Grantees

      Pending at beginning of reporting period                     0

      Issued during reporting period                             16

      Closed during reporting period                             14

      Pending at end of reporting period                           2


Recommendations to LSC Management

      Pending at beginning of reporting period                     0

      Issued during reporting period                               0

      Closed during reporting period                               0

      Pending at end of reporting period                           0



Independent Audits Of Grantees

Since 1996, LSC’s annual appropriations acts have required that each person or
entity receiving financial assistance from the Legal Services Corporation be
subject to an annual audit, to be conducted by an independent public accountant
(IPA) in accordance with generally accepted government auditing standards and
guidance established by the Office of the Inspector General. Each grantee
contracts directly with an IPA to conduct the required audit in accordance with
generally accepted government auditing standards, and the OIG Audit Guide for
Recipients and Auditors and Compliance Supplement, which incorporates some
requirements of OMB Circular A-133.
.

                                        8
While these audits are not performed by the OIG, the OIG does provide guidance
to the IPAs and oversees the IPA process. The OIG reviews all audit reports
prepared by the IPAs each year, and performs on-site quality reviews of selected
IPAs’ documentation.

The OIG also works with management through an audit follow-up process to
ensure that adequate action is taken to address all significant findings identified
in IPA reports and referred to LSC management. LSC’s annual appropriations
acts specifically require that LSC follow up on significant findings identified by the
IPAs and reported to the Corporation’s management by the OIG.

In order to provide more complete information in our Semiannual Reports to
Congress, included in this report is a summary of significant findings and the
status of follow-up on significant findings reported by the IPAs as part of the
grantee oversight process. The audit reports and the findings identified in this
section and the related schedules reflect the work of the IPAs, not the OIG.


Follow-up Process

Recipient audit reports are submitted to the OIG within 120 days of the close of
the recipient’s fiscal year end. The OIG reviews the report and any related
findings and recommendations. Based on this review, the OIG refers appropriate
findings to LSC management for follow-up.

If not included as part of the audit report, LSC management ensures that the
recipient submit a corrective action plan for all material findings,
recommendations, and questioned costs identified by the IPA and referred to
management.

After appropriate corrective action has been taken by the recipient, LSC
management advises the OIG and requests that the finding be closed. The OIG
reviews management’s request and decides independently whether it will agree
to close the finding. If LSC management and the OIG cannot agree on closing a
finding, the matter is entered into a resolution process for final determination.


Review of Grantees’ Annual Audit Reports: IPA Audit Findings

During the reporting period, the OIG reviewed 113 IPA audits of grantees with a
fiscal year end of December 31, 2007. These audit reports contained 94
findings. The OIG determined that 18 findings were not significant and closed
the findings. Of the remaining findings, 73 were referred to LSC management
and three findings were assigned for review within the OIG. Of the 73 findings
referred to LSC management, 11 were identified by the OIG as matters of
possibly significant concern or interest to LSC management. By highlighting

                                          9
these findings, management is informed of the issue even though follow-up
action with the recipient may not be required.

The tables below present information on the 113 recipient audit reports received
this period (recipients with fiscal years ending December 31, 2007).



      Summary of Findings Reported in Recipient Financial
      Statement Audits

      Total Number of Findings Referred………………………………....73

      Number of Findings with Corrective Action Accepted
      by LSC Management…………………………………………….…...36

      Number of Findings Awaiting LSC Management Review..............37



      Types of Findings Referred to LSC Management for Follow-up

                                                                                               Number of
   Category                                                                                     Findings


       Missing documentation ............................................................... 21
       Weaknesses in Financial Transactions and Reporting................ 15
       OIG Alerts ................................................................................... 11
       Other ............................................................................................. 8
       Policies and Procedures ............................................................... 6
       Timekeeping.................................................................................. 5
       Reporting Issues ........................................................................... 4
        Physical Asset Inventory ............................................................... 3
               Total ................................................................................... 73




                                                      10
Audit Service Reviews

The OIG is responsible for the oversight of the Independent Public Accountants
(IPAs) who are selected by the grantees to perform their annual financial and
compliance audits. To fulfill this responsibility, the OIG conducts Audit Service
Reviews (ASRs), which are reviews of the audit documentation of selected IPAs
to ensure that they adequately tested the grantee’s compliance with LSC
regulations. During this period, the OIG issued three ASR reports.




                                       11
                            INVESTIGATIONS

The OIG opened 23 investigations during this reporting period (compared to 18
the previous reporting period). These included 11 compliance matters, nine
criminal investigations, two fraud vulnerability assessments, and one financial
risk assessment project. The compliance investigations included allegations of
violations of LSC statutes and regulations involving matters such as improperly
seeking attorneys’ fees and representing ineligible clients.         The criminal
investigations included allegations of financial fraud and thefts of property from
LSC programs. During the reporting period the OIG also closed 22 investigations
(compared to 19 the previous period). These included 13 compliance matters,
seven criminal investigations, one fraud vulnerability assessment, and one
financial risk assessment project. The OIG also issued two Inspector General
subpoenas in connection with two ongoing investigations.


Fraud Alert Issued to Executive Directors

During this reporting period, the OIG issued a fraud alert to all grantee Executive
Directors to highlight issues related to an investigation where a grantee
employee embezzled grant funds and stole monies from clients. This employee
bypassed the grantee’s regular intake process and, without the grantee’s
knowledge, provided services to clients needing assistance in obtaining
immigration documents from the government. The clients thought they were
getting assistance from the grantee in the normal course of business as all the
activities were conducted at the grantee’s office. The employee would instruct
the clients to pay the required government document fees in cash, or by money
orders with the payee section left blank, and the employee would then keep the
funds. To continue the process of getting the immigration documents for the
client, the employee would request a check for the fees under an existing grantee
case number, or request a fee waiver from the government. No one at the
grantee ever questioned the check requests as all checks issued under this
scheme were made payable to the government. This scheme was detected by
the grantee when a client contacted the grantee to question the status of the
application and the grantee could not find an open case for the client.

The OIG will continue to issue periodic alerts advising Executive Directors about
fraudulent schemes and activities in an effort to prevent them from occurring and
to help detect them if they do, unfortunately, occur.




                                        12
Financial Risk and Fraud Vulnerability Assessments

During this reporting period the OIG completed a comprehensive financial risk
assessment project that identified program risks for 2008. This project was
initiated to identify and proactively address grantee financial risk. It included a
survey of all LSC grantees. Based on financial statement reviews, other reviews,
hotline complaints, and referrals from LSC and other sources, grantee programs
are selected for field visits to conduct individual fraud vulnerability assessments
(“FVAs”).

This period the OIG conducted two fraud vulnerability assessments. The FVAs
consist of a fraud awareness briefing to the Executive Director and Chief
Financial Officer; a focused document review in areas identified as weak or
prone to abuse; and a review of grantee internal control policies versus practices.
These reviews help surface both existing and potential problem areas; improve
managers’ awareness of their fiscal responsibilities; and serve as a deterrent by
making staff aware that funds are subject to review.

Past OIG investigations at grantee sites have involved funds stolen from petty
cash, and fraudulent activity involving travel and mileage expenses, credit card
accounts, payroll/salary advances, and grantee vendor accounts. Reviews of
internal controls for the programs affected by these incidents were found
adequate for the size of the operations, yet a breakdown of these controls
facilitated the opportunities for embezzlements. In most cases, the employee
was a trusted employee and internal control processes were ignored. The OIG
found the leading indicators for embezzlement of funds were greed/lifestyle,
gambling, revenge, and medical costs. By bringing these factors to the attention
of grantee managers, the OIG hopes to assist them in detecting early warnings of
potential fraud.

The OIG will report the results on the two FVAs conducted during this period in
our next report.


Hotline

The OIG maintains a Hotline for reporting illegal or improper activities by LSC
grantees or Corporation staff. For this reporting period, the OIG received 27
Hotline contacts (compared to 29 the previous reporting period). Of these
matters, three were referred to LSC’s Office of Government Relations and Public
Affairs; two were referred to LSC's Office of Compliance and Enforcement for
follow-up; six were opened as investigations within the OIG; and the remaining
matters were closed.



                                        13
During this reporting period, the OIG also made several improvements to its
Hotline process. The toll-free Hotline number (800-678-8868) now directs callers
seeking information about getting legal help to LSC’s main telephone number
(202-295-1500). Because LSC does not maintain a toll-free call-in number, the
OIG had received many requests on its toll-free Hotline number from people
looking to find an LSC program in their area. The change will help reduce OIG
time spent on such calls and direct callers to a central LSC number so they can
obtain this important information. The Hotline also added two additional ways to
be contacted:      by e-mail and by fax.          The new e-mail address is
hotline@oig.lsc.gov and the new fax number is 202-337-7155. The OIG will
continue working to improve Hotline operations to make contacting us easier and
to encourage the reporting of potential fraud, waste, and abuse in LSC programs
and operations.


INVESTIGATIVE CASES

      Open at beginning of reporting period          20

      Opened during reporting period                 23

      Closed during reporting period                 22

      Open at end of reporting period                21


PROSECUTORIAL ACTIVITIES

      Referred for prosecution                       0

      Accepted for prosecution                       0

      Declined for prosecution                       0

      Indictments                                    0

      Convictions                                    0


INVESTIGATIVE ACTIVITIES

      Inspector General subpoenas issued             2




                                        14
                             LEGAL REVIEWS


Review of Proposed Legislation, Regulations and Policy

Pursuant to the IG’s statutory responsibilities, the OIG reviews and, where
appropriate, comments on statutory and regulatory provisions affecting LSC
and/or the OIG, as well as LSC interpretive guidance and internal policies and
procedures.

This period the OIG reviewed and, where appropriate, provided comments on 10
legislative, regulatory, and policy matters. The more significant items are
discussed below.

The OIG reviewed a number of legislative proposals to amend the Inspector
General Act of 1978, and coordinated with counsel for the Legislative Committee
of the President’s Council on Integrity and Efficiency in their continuing work in
connection with the long-standing initiatives to amend the IG Act. (These efforts
recently came to fruition with the passage of H.R. 928, signed into law on
October 14, 2008, just after the close of the current reporting period, as the
Inspector General Reform Act of 2008.)

Each year, LSC reviews and revises the standard grant assurances each LSC
recipient must agree to as a condition of receiving an LSC grant. During the
reporting period, the OIG provided recommended revisions to the grant
assurances for the 2009 grant year, with particular emphasis on those
assurances affecting the OIG.            Management accepted the OIG’s
recommendations clarifying the requirement that grantees report criminal activity
to the OIG as well as the terminology for referral of significant audit findings for
resolution.

As reported in our last Semiannual Report, the LSC Board of Directors is
considering rulemaking options to provide additional tools to induce grantee
compliance, termed lesser or alternative sanctions. This rulemaking is among
those previously recommended to the Board by the OIG. During the current
reporting period, the OIG continued to monitor consideration of lesser or
alternative sanctions by the Board and LSC management. In addition, the OIG
participated as an observer and commenter in a rulemaking workshop held by
management to solicit opinions from grantees and other interested parties
regarding available rulemaking options.

The OIG also reviewed, commented on, and offered revisions to LSC’s updated
Freedom of Information Act regulations. Under the revised regulations, the OIG
will be authorized to receive and act upon Freedom of Information Act requests

                                        15
directly, without LSC’s Office of Legal Affairs being required to receive such
requests initially and then refer them to the OIG.


Litigation Activities

As noted in previous Semiannual Reports, in 2006 the OIG issued an interim
report on the activities of California Rural Legal Assistance (CRLA), finding
substantial evidence that CRLA had violated federal law and regulations
governing LSC grantees. The OIG could not complete its investigation due to
CRLA’s refusal and/or failure to respond to an OIG subpoena seeking
information relevant to the investigation.

Accordingly, in March 2007, the U.S. Department of Justice filed a petition in the
United States District Court for the District of Columbia to enforce the OIG’s
subpoena.     Following resolution of a number of procedural issues and
submission of briefs later in 2007, on August 26, 2008, the district court heard
arguments on the petition. At the request of the district court, the parties
subsequently agreed to attempt to resolve their differences through mediation.
That process is currently underway.


Other Activities

During this reporting period, the OIG responded to two Freedom of Information
Act (FOIA) requests. The OIG legal staff also worked in conjunction with LSC’s
Office of Legal Affairs to ensure that LSC and the OIG are in compliance with
FOIA electronic reading room requirements. OIG counsel provided 11 written
legal opinions during the period.




                                       16
                       OTHER OIG ACTIVITIES


Management Information Memoranda

This period the OIG initiated a practice of issuing Management Information
Memoranda (MIMs). These are designed to bring promptly to management’s
attention issues that may be uncovered in the course of ongoing OIG work, so
that management may consider taking immediate corrective action.

      Management Information Memorandum – Dues Payments

As part of the Inspector General's responsibility to keep management informed, a
MIM was sent to LSC management to alert them of a situation that was
discovered as a result of an audit at a grantee. The grantee had paid for staff
membership dues in a nonprofit organization, which were an unallowable cost
under the LSC Act and regulations. The purpose of the MIM was to suggest that
management have members of its oversight teams look at this issue when
visiting other grantees to determine if the problem is systemic and needs to be
addressed LSC-wide. Management reported it would raise the issue with
Executive Directors at an upcoming conference to emphasize that LSC funds
may not be used for such purposes.

      Management Information Memorandum – Grantee Data Reporting

A MIM was issued to alert management to apparent data reporting errors
involving LSC’s Grantee Profile and Grantee Reports (GREPS). The OIG
reported data problems with grantees’ reporting of staff attorneys’ part-time vs.
full-time status, as a function of hours worked. Management responded
positively to the MIM. The issues identified by the OIG were corrected;
management reported the problems were not widespread.

      Management Information Memorandum – Automated Accounting
      Records, Improvement Needed

A MIM was issued to bring to management’s attention a deficiency in the
Corporation’s automated accounting system.     In the course of collecting
information requested by Congress, the OIG found that the automated system
did not contain information needed to correlate travel expenditures to the
purpose of a trip. The OIG recommended changes to the system which would
improve accountability of funds and provide management with better cost and
planning information. Management responded positively and reported it would
implement the recommended changes.

                                       17
      Management Information Memorandum – Delinquent Travel Expense
      Reports

A MIM was issued to alert management to a number of fiscal control issues
arising from an inventory of delinquent travel expense reports. The OIG noted
that the outstanding reports created expense tracking and other accounting
problems. LSC management had initiated some corrective actions; the MIM
outlined additional steps for management to consider to help address the
problem. Management responded positively to these suggestions.


Congressional Request

On June 30, 2008, the OIG responded to a request from the Ranking Members
of the Senate Committees on Finance and Health, Education, Labor, and
Pensions, for information regarding LSC’s implementation of actions
recommended in two recent GAO reports, “Legal Services Corporation –
Governance and Accountability Practices Need to be Modernized and
Strengthened” (August 2007), and “Legal Services Corporation – Improved
Internal Controls Needed in Grants Management and Oversight” (December
2007).

Pursuant to the Senators’ request, the OIG specifically reported on: (1) its
assessment of the status of LSC’s efforts to address the deficiencies identified in
the August 2007 report, both as to GAO’s recommendations for action by the
Board of Directors and by LSC management; (2) questions regarding the amount
and purpose of travel by LSC officials; (3) questions regarding the purpose,
attendance, costs, and funding source for the January 2008 LSC-sponsored
reception on Capitol Hill; (4) questions regarding the purpose and costs of LSC’s
May 2008 Executive Directors’ Conference, as well as certain information
regarding past LSC conferences; and (5) information regarding LSC’s on-site
reviews of grantees during 2008, from January 1st to date of the report.


Ad Hoc Committee

The Board of Directors formed an Ad Hoc Committee to consider and address
issues raised in two recent GAO reports, “Legal Services Corporation –
Governance and Accountability Practices Need to Be Modernized and
Strengthened” (August 2007), and “Legal Services Corporation –Improved
Internal Controls Needed in Grants Management and Oversight” (December
2007).

The OIG participated as part of a working group assisting the Ad Hoc Committee
in its efforts.


                                        18
The OIG provided detailed informational briefings to Committee members and
senior management concerning the “integrated internal control framework,” as
defined by the Committee of Sponsoring Organizations (COSO) of the Treadway
Commission.1 The COSO “integrated internal control framework” is among the
most widely employed in the United States, used by virtually every audit
organization, including GAO, when looking at an organization’s system of internal
control. An understanding of this framework was deemed critical to a full
understanding of the concerns and context underlying the GAO reports and of
how best to address the issues raised in the reports.

Audit Committee

On March 24, 2008, just prior to the start of this reporting period, LSC’s Board of
Directors established an Audit Committee and adopted its charter. The
Chairman thereafter appointed three directors to serve as its initial members.
The formation of such a committee was one of the specific recommendations
made by GAO in its report on LSC’s governance and accountability practices.
The Committee constitutes a key element in strengthening LSC’s corporate
governance regime, and serves as a needed mechanism to address and resolve
audit questions and other important issues.

The OIG played a significant advisory role in helping the Board develop a charter
for the Audit Committee. In addition to providing comments on the various draft
charters, the OIG provided a broad range of information for the Board to
consider, which included audit committee charters from government
organizations, and commentary and recommendations on the roles and
responsibilities of audit committees from a variety of sources, including the
American Institute of Certified Public Accountants.       The Audit Committee’s
charter takes specific cognizance of the statutory authority and role of the
Inspector General. The Audit Committee and the OIG complement each other in
their respective oversight roles.


Professional Assistance

The OIG responded to a request by the Project on Government Oversight
(POGO) to participate in a survey as part of its long-term study of the IG system
and how to improve it. We responded to survey questions dealing with issues

1
 COSO is comprised of five major U.S. professional financial associations: the American
Accounting Association, the American Institute of Certified Public Accountants, Financial
Executives International, the Institute of Internal Auditors, and the Institute of Management
Accountants (formerly the National Association of Accountants). COSO was formed in 1985 to
sponsor the National Commission on Fraudulent Financial Reporting, popularly known as the
Treadway Commission, an independent private-sector initiative which studied the factors that can
lead to fraudulent financial reporting. It also developed recommendations for public companies
and their independent auditors, for the SEC and other regulators, and for educational institutions.

                                               19
such as IG budgeting and contracting authority, independent IG legal counsel,
and cooperation and coordination with agency management.            POGO had
previously sent a survey to all OIGs, which led to its February 28, 2008 report
entitled, “Inspectors General: Many Lack Essential Tools for Independence.”

Other surveys or studies the OIG participated in this period included: a GAO
survey on the governance practices of designated federal entities; a Postal
Service OIG survey of how IGs handle financial statement audits at their
respective agencies; and a Federal Audit Executive Council survey on human
capital issues affecting the federal audit community.


Statement of Professional Standards

The OIG developed and issued a formal Statement of Professional Standards for
OIG employees. The statement articulates the principles and rules of conduct
governing OIG employees in carrying out their duties, and reflects the OIG’s
commitment to ensuring the continued independence, integrity, and reliability of
its work.      The statement includes detailed provisions with respect to:
professionalism; integrity; objectivity; freedom from impairments; confidentiality;
reporting responsibilities; compliance; and other matters. The statement is
supplemental to the recently adopted Code of Ethics and Conduct, applicable to
all LSC personnel.




                                        20
                               AUDIT REPORTS ISSUED
                      for the Period Ending September 30, 2008


                                                                       Funds Put
                                               Date       Questioned       to        Unsupported
Report Title                                  Issued        Costs      Better Use       Costs

Reports on Selected Internal Controls:

Neighborhood Legal Services Program of DC      07/31/08       $0           $0            $0
Laurel Legal Services                         08/07/08        $0           $0            $0
Wyoming Legal Services                        08/08/08      $4,686         $0            $0
Philadelphia Legal Assistance Center          08/14/08        $0           $0            $0
Legal Assistance Foundation of Metropolitan   09/30/08        $0           $0            $0
Chicago




                          AUDIT SERVICE REVIEWS ISSUED
                      for the Period Ending September 30, 2008

                                                                             Date
Recipient                                       IPA                         Issued

Neighborhood LSP of DC                   Walker & Co.                       05/06/08
Central Minnesota LS                     Harrington, Langer & Assoc.        08/13/08
Iowa Legal Services                      Denman Co.                         09/11/08




                                              21
                                               TABLE I

                        Audit Reports Issued with Questioned Costs
                         for the Period Ending September 30, 2008


                                                         NUMBER
                                                           OF      QUESTIONED   UNSUPPORTED
                                                         REPORTS     COSTS         COSTS

    A. For which no management decision has been made       0          $0             $0
            by the commencement of the reporting
            period.

    B. Reports issued during the reporting period           1        $4,6862          $0

             Subtotals (A + B)                              0          $0             $0

    LESS:

    C. For which a management decision was made             1        $4,686           $0
            during the reporting period:

             (i) dollar value of recommendations that       1        $4,686           $0
                  were agreed to by management

            (ii) dollar value of recommendations that       0          $0             $0
                  were not agreed to by management

    D. For which no management decision had been made       0          $0             $0
            by the end of the reporting period

    E. Reports for which no management decision had         0          $0             $0
    been made within six months of issuance




2
  On August 8, 2008 the OIG referred to LSC management questioned costs found in the audit
report on Selected Internal Controls – Wyoming Legal Services, Inc. The OIG’s review covered
the period 2007-2008. The $4,686 in questioned costs represents $3,725 in membership dues
and $961 in late fees. LSC management, by memo dated September 15, 2008, advised that the
questioned costs of $6,801.93 had been recouped from the grantee. LSC management
conducted its own review of the recipient’s payment of late fees and impermissible dues for the
longer period of 2006-2008. LSC collected the higher amount of $6,801.93. This issue of
questioned costs is resolved.

                                                    22
                                                TABLE II

               Audit Reports Issued with Funds to Be Put to Better Use
                      for the Period Ending September 30, 2008



                                                               NUMBER OF   DOLLAR
                                                                REPORTS    VALUE

A. For which no management decision has been made by the           0         $0
        commencement of the reporting period.


B. Reports issued during the reporting period                      0         $0


        Subtotals (A + B)                                          0         $0
LESS:

C. For which a management decision was made during the             0         $0
        reporting period:

        (i) dollar value of recommendations that were agreed       0         $0
             to by management
        (ii) dollar value of recommendations that were not         0         $0
                  agreed to by management

D. For which no management decision had been made by the           0         $0
        end of the reporting period


   Reports for which no management decision had been made          0         $0
   within six months of issuance




                                                  23
                                              TABLE III

                             Index to Reporting Requirements
                                 of the Inspector General


   IG ACT
 REFERENCE*                                REPORTING REQUIREMENT                                PAGE

Section 4(a)(2)   Review of legislation and regulations                                          15

Section 5(a)(1)   Significant problems, abuses, and deficiencies                                None

Section 5(a)(2)   Recommendations with respect to significant problems, abuses, and             None
                  deficiencies

Section 5(a)(3)   Prior significant recommendations on which corrective action has not been     None
                  completed

Section 5(a)(4)   Matters referred to prosecutive authorities                                   None

Section 5(a)(5)   Summary of instances where information was refused                            None

Section 5(a)(6)   List of audit reports by subject matter, showing dollar value of questioned    21
                  costs (including a separate category for the dollar value of unsupported
                  costs) and funds to be put to better use

Section 5(a)(7)   Summary of each particularly significant report                               4-7

Section 5(a)(8)   Statistical table showing number of audit reports and dollar value of          22
                  questioned costs

Section 5(a)(9)   Statistical table showing number of reports and dollar value of                23
                  recommendations that funds be put to better use

Section           Summary of each audit issued before this reporting period for which no        None
5(a)(10)          management decision was made by the end of the reporting period

Section           Significant revised management decisions                                      None
5(a)(11)

Section           Significant management decisions with which the Inspector General             None
5(a)(12)          disagrees

*Refers to sections in the Inspector General Act of 1978, as amended.




                                                   24
                                                                                               Legal Sewices Corporation
                                                                                               America's Partner For Equal Justice




President
Helaine M. Barnett                                                             November 25,2008
Board of Directors
Frank B. Strickland
Atlanta, GA
Cnaiman
                           The Honorable Edward M. Kennedy, Chairman
Lillian R. BeVier
Charlottesville, VA
                           Committee on Health, Education, Labor and Pensions
Vice Cnaiman               United States Senate
Jonann C. Chiles           644 Dirksen Senate Office Building
Little Rock, AR            Washington, DC 205 10
Thomas A. Fuentes
Lake Forest, CA
                           Dear Chairman Kennedy:
Herbert S. Garten
Baltimore, MD
                                   I am pleased to provide you with a copy of the Semiannual Reports to the
David Hall
Boston, MA                 Congress of the United States from the Legal Services Corporation (LSC) Board of
                           Directors and Office of Inspector General, for the period April 1,2008 to October 3 1,
Michael D. McKay
Seattle, WA                2008. The Board of Directors' report includes a summary of LSC7smajor activities
Thomas R. Meites
                           during the reporting period.
Chicago, I L

Bernice Phillips-Jackson
Buffalo, NY                                                                    Sincerely,
Sarah M. Singleton
Santa Fe, NM




                                                                               Frank B. Strickland
                                                                               Chairman



                           Attachment




                                                                                               3333 K !Street, NW 3* Floor
                                                                                               Washington, DC 20007-3522
                                                                                               Phone 202.295.1500 Fax 202.337.6797
                                                                                               www.lx.'gov
                                                                                                Legal Sewices Corporation
                                                                                                America's Partner For Equal Justice




                                                                                November 25,2008



President                  The Honorable Edward M. Kennedy, Chairman
Helaine M. Bamett
                           Committee on Health, Education, Labor and Pensions
Board of Directors         United States Senate
Frank B. Strickland
Atlanta, GA                644 Dirksen Senate Office Building
Chalnnan                   Washington, DC 205 10
Lillian R. BeVier
Charlottesville, VA
Wce Chairman               Dear Chairman Kennedy:
Jonann C. Chiles
Little Rock, AR                   The Office of the Inspector General (OIG) of the Legal Services Corporation
Thomas A. Fuentes          (LSC) has completed its Semiannual Report for the period April 1,2008 through
Lake Forest, CA            September 30,2008. I am transmitting the Report to Congress as required by law,
Herbert S. Garten          along with this Management Response containing additional information. The Board
Baltimore, MD
                           concurs with the presentation of statistics in Tables I, 11, and I11 of the report.
David Hall
Boston, MA
                                   Congress entrusts LSC with a dual mission: to promote equal access to justice
Michael D. McKay           and to provide high-quality civil legal assistance to low-income Americans. In
Seattle, WA
                           fulfillment of that mission, LSC funds 137 programs with 923 offices serving every
Thomas R. Meites
Chicago, I L               congressional district in the nation.
Bernice Phillips-Jackson
Buffalo, NY                       LSC is governed by a bipartisan, 11-member Board of Directors appointed by
Sarah M. Singleton         the President of the United States with the advice and consent of the Senate. The
Santa Fe, NM               Board appoints LSC's President, who serves as the chief executive officer. The
                           Inspector General Act of 1988 established the OIG within LSC. The Inspector
                           General is appointed by the Board and operates under its general supervision.

                                   Our nation promises equal access to justice for all, not just for those who can
                           afford to pay for it. That ideal may never be fully realized, but America can do
                           better-we must if we are to fulfill our nation's promise of equal justice for all.

                                    As we forward this semi-annual report to Congress, our challenges in
                           fulfilling our mission are very large. Nearly 51 million people-including 19.7
                           million women and 17.6 million children-are eligible for LSC-funded services,
                           according to the recently released 2007 Census data. That represents an increase of
                           1.18 million people from 2006.




                                                                                                 3333 K Street, NW 3' Floor
                                                                                                 Washington, DC 20007-3522
                                                                                                 Phone 202.295.1500 Fax 202.337.6797
                                                                                                 www.lsc.gov
Honorable Edward Kennedy
November 25,2008
Page 2



        This new poverty snapshot does not reflect this year's economic downturn,
suggesting that even more people are eligible for LSC-funded services than have
shown up thus far in official counts. There can be no doubt that low-income
Americans will be most severely impacted by the downturn. Prices for gasoline, food
and utilities are rising; unemployment is up, and foreclosures continue to unsettle
communities. Economic erosion affects the poor disproportionately, resulting in
increased loss of housing, loss of jobs, and reductions in access to healthcare. Legal
aid helps clients who have nowhere else to turn.

        Helping fuel the uncertain economy is the rise in foreclosures flowing from
the subprime mortgage crisis. An increasing number of low-income Americans are in
danger of losing their homes. They may be victims of predatory lenders, especially if
they are minorities or elderly. They may be in financial distress because they lost a
job, have become disabled, or lost a spouse who contributed to their household
income. Often, low-income individuals and families who rent face imminent eviction
because they are the last to know that their landlord is in foreclosure.

       Many of our programs report a rise in requests for help from low-income
Americans facing foreclosure actions. Foreclosure laws vary by state, and our local
programs are well-suited to help low-income homeowners, especially with
foreclosures that can be traced to predatory lending schemes. With legal assistance,
they can renegotiate the terms of their loans or assert truth-in-lending protections in
court.

        Sadly, the economic downturn and mortgage foreclosure crisis are not the
only reasons we expect to see an increased demand for legal services. Natural
disasters, such as Hurricanes Ike and Gustav, have devastated parts of Texas,
Louisiana and Arkansas and increased the number of people without jobs, income and
health care, while putting more poor people at risk of consumer fraud. Wildfires
have prompted emergency declarations in California and Texas, and snowstorms led
Ohio and Wisconsin to declare emergencies. Five Midwestern states suffered their
worst flooding in a century this summer.

       Faced with this challenging environment, the Board, LSC management, and
the OIG have worked together during this reporting period to continue to improve
LSC's economy and efficiency, to modernize Board governance, to clarify the roles
and responsibilities for grantee oversight, and to reiterate the importance of
compliance with the law and regulations governing our grantees.
Honorable Edward Kennedy
November 25,2008
Page 3



       LSC provided a May 20,2008 update and an August 28,2008 final report to
the Government Accountability Office (GAO) documenting the substantial
completion of all of the recommendations of two recent reports, Legal Services
Corporation, Governance and Accountability Practices Need to Be Modernized and
Strengthened, August 2007, and Legal Services Corporation,Improved Internal
Controls Needed in Grants Management and Oversight, December 2007.

          Specifically, the newly established Audit Committee of the Board conducted
its first three meetings on April 26,2008, August 1,2008, and October 31,2008, and
discussed the process used by LSC's Inspector General to select and retain the
Corporation's external auditor, examined how the work of the OIG will complement
the work of the Audit Committee, heard comments from LSC's Independent Public
Accountant regarding the Audit Committee's mission, reviewed and acted on a new
protocol for the acceptance and use of private contributions to LSC, and reviewed
management's plan for a risk assessment program.

        In addition, training sessions were conducted for all officers, employees, and
Board members of the Corporation on the Code of Ethics and Conduct that was
adopted by the Board in March. At the August meeting of the Board, the charters for
the final two committees, the Governance and Performance Review Committee and
the Operations and Regulations Committee were adopted.

         LSC hosted an LSC Executive Directors Conference, in Washington, DC, in
June, which was attended by 136 of the 137 LSC-funded programs, all but four of
which were represented by the Executive Director. The conference provided a timely
opportunity to make a very direct presentation about compliance, the important role
that it plays in quality legal services programs, and the individual and collective
responsibility all programs have to do their very best to maintain close attention to
applicable laws and regulations in all of their work. LSC spoke about the GAO
findings and the expectations for heightened compliance awareness in all programs.

        The Board and LSC management continue to appreciate the work of the OIG
and, in particular, the efforts of Jeffrey E. Schanz, Inspector General of LSC, to
improve communication and cooperation during this reporting period. In particular,
the introduction of Management Information Memoranda (MIM) has provided timely
information to management and provided the opportunity to take appropriate action
where necessary.
Honorable Edward Kennedy
November 25,2008
Page 4

        We fully recognize that it is our ongoing responsibility to ensure that our
programs deliver high quality civil legal assistance to eligible clients in the most
effective and efficient means possible, in conformity with the mandates of Congress.
The annual audit plans of the OIG, the newly-formed Audit Committee of the Board,
the independent audit of the finances of the Corporation, the independent public
accountant audits of the 137 LSC-funded programs, and the coordinated on-site
program visits by the Office of Compliance Enforcement and Office of Program
Performance, will combine to verify the effectiveness of the changes. LSC will
engage in an ongoing assessment of our oversight processes and will continue to
share this information with the appropriate committees of Congress. In addition, we
will keep the Congress apprised of our progress on the implementation of our risk
assessment program and any other areas that our oversight and appropriations
committees would deem appropriate.

      If you have any questions or desire any further information, please contact
John Constance, Director, Government Relations and Public Affairs, at 202-295-
1611.

                                                   Sincerely,




                                                   Frank B. Strickland
                                                   Chairman
                                                   Board of Directors
